                                              MINE SAFETY AND HEALTH
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              MSHA'S PROCESS FOR DETERMINING THE
                                              CHARGEABILITY OF REPORTED FATALITIES
                                              WOULD BENEFIT FROM ADDITIONAL CONTROLS




                                                                         Date: November 14, 2007
                                                                Report Number:   05-08-002-06-001
U.S. Department of Labor                                November 2007
Office of Inspector General
Office of Audit                                         MSHA’S PROCESS FOR DETERMINING THE
                                                        CHARGEABILITY OF REPORTED FATALITIES
                                                        WOULD BENEFIT FROM ADDITIONAL
BRIEFLY…                                                CONTROLS
Highlights of Report Number 05-08-002-06-001,
MSHA's Process for Determining the Chargeability        WHAT OIG FOUND
of Reported Fatalities Would Benefit from               In a sample of 152 fatality decisions made
Additional Controls, to the Assistant Secretary for     between January 1, 2004 and December 31, 2006,
Mine Safety and Health, dated November 14,              and a sample of 24 decisions made between
2007.                                                   February 9, 2007, and June 30, 2007, the OIG did
                                                        not identify any instances in which similar
WHY READ THE REPORT                                     circumstances produced different decisions or
Federal regulations require mine contractors and        instances where a chargeability decision was
operators to report all fatalities to the Mine Safety   clearly contradicted by available evidence.
and Health Administration (MSHA). Criteria              However, we did identify instances of
established by MSHA classify a fatality as              non-compliance with MSHA policies and control
chargeable to the mine industry if the incident         and procedural weaknesses that increased the risk
resulted in a death on mine property and from           that such errors could occur. Specifically,
mine related work or the death was caused by            investigators and decision-makers lacked
mining activities. The number of chargeable             independence, investigative procedures were
fatalities impacts MSHA’s performance measures          inconsistent, and investigative documentation was
and potentially the public’s perception of how well     sometimes lacking.
it is fulfilling its mission. During Calendar Year
2006, there were 145 reported fatalities at U.S.        WHAT OIG RECOMMENDED
mining operations. Of these, MSHA determined            We made seven recommendations to the Assistant
72 to be chargeable.                                    Secretary for Mine Safety and Health aimed at
                                                        reducing the actual and perceived risk of
In January 2007, MSHA initiated and completed an        independence impairments and assuring that
in-house review of how it determined which              decisions are based on complete, well
reported fatalities were chargeable. As a result, on    documented evidence.
February 9, 2007, MSHA’s Assistant Secretary
revised the procedure and changed the members           Key recommendations included:
of the Fatality Review Committee.                           defining a standard protocol for first
                                                             responders;
WHY OIG CONDUCTED THE AUDIT
In response to a request from Congressman                   including an independent member on the
George Miller, Chairman of the House Committee               Fatality Review Committee;
on Education and Labor, the Office of Inspector             implementing a standardized investigative
General (OIG) conducted a performance audit of               protocol for all fatality investigations; and
MSHA’s process for deciding whether reported
fatalities were chargeable to the mining industry.          establishing a quality assurance process for
Our objective was to determine whether MSHA’s                documentation of investigative information.
process and controls ensured that its decisions
were consistent, supported by appropriate               The Assistant Secretary for Mine Safety and
evidence, and in accordance with Federal                Health generally agreed with our
regulations and MSHA policies.                          recommendations, but MSHA needs to provide
                                                        additional information before the OIG will consider
READ THE FULL REPORT                                    the recommendations resolved.
To view the report, including the scope,
methodology, and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2008/05-08-
002-06-001.pdf
                                                            U.S. Department of Labor – Office of Inspector General




Table of Contents

Executive Summary ...................................................................................................... 1

Assistant Inspector General’s Report ......................................................................... 5
         Finding 1 -         Investigators and Decision-makers Lacked Independence
                             without Effective Compensating Controls........................................ 6

         Finding 2 -         Scope and Method of Accident Investigations Were
                             Inconsistent................................................................................... 11

         Finding 3 -         Relevant Investigative Tasks and Findings Were Not Always
                             Documented.................................................................................. 13

         Finding 4 -         Under MSHA’s Former Policy, Second-Level Reviews Were
                             Not Always Performed .................................................................. 16

Appendices.................................................................................................................. 19
         A. Background ................................................................................................... 21

         B. Objective, Scope, Methodology, and Criteria ................................................ 25

         C. Acronyms and Abbreviations ........................................................................ 29

         D. Agency Response......................................................................................... 31




                                               MSHA's Chargeable Fatality Determinations Need Better Controls
                                                                                Report No. 05-08-002-06-001
                 U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




        MSHA's Chargeable Fatality Determinations Need Better Controls
                                         Report No. 05-08-002-06-001
                                            U.S. Department of Labor – Office of Inspector General




Executive Summary
In response to a request from Congressman George Miller, Chairman of the House
Committee on Education and Labor, the Office of Inspector General (OIG) conducted a
performance audit of the Mine Safety and Health Administration’s (MSHA’s) process for
deciding whether reported fatalities were chargeable to the mining industry.
Specifically, we performed work to answer the following question:

       Did MSHA’s process and controls ensure that its decisions regarding whether a
       reported fatality was chargeable to the mining industry were consistent,
       supported by appropriate evidence, and in accordance with Federal regulations
       and MSHA policies?

Federal regulations require mine contractors and operators to report all fatalities to
MSHA. The regulations do not specify how MSHA should determine whether a fatality
is chargeable to the mine industry and, therefore, included in MSHA’s reported
statistics. Criteria established by MSHA classify a fatality as chargeable if the incident
resulted in a death on mine property and from mine related work or the death was
caused by mining activities. Fatalities on mine property resulting from (a) natural
causes (e.g., heart attack); (b) personal impairment not complicated by or resulting from
work activity; (c) trespass; (d) homicide; or (e) suicide were not considered chargeable.
During calendar year (CY) 2006, there were 145 reported fatalities at U.S. mining
operations. Of these, MSHA determined 72 to be chargeable.

In January 2007, MSHA initiated and completed an in-house review of how it
determined which reported fatalities were chargeable. As a result, on February 9, 2007,
MSHA’s Assistant Secretary revised the procedure for making chargeability decisions
and changed the members of the Fatality Review Committee.

The number of chargeable fatalities impacts MSHA’s performance measures and
potentially the public’s perception of how well it is fulfilling its mission. It is important
that MSHA ensure that chargeability decisions are consistent, supported by appropriate
evidence, and in accordance with Federal regulations and its policies. Reliable and well
documented chargeability decisions improve miner safety and health by increasing
MSHA’s ability to identify mining fatalities and utilize causal information to prevent
similar occurrences.

Results

We reviewed a sample of 152 fatality decisions, both chargeable and non-chargeable,
made between January 1, 2004, and December 31, 2006. We also reviewed 24 fatality
decisions made between February 9, 2007, and June 30, 2007, during which time
MSHA’s revised policy was implemented. We did not identify instances in which similar
circumstances produced different decisions or instances where a chargeability decision


                                   MSHA's Chargeable Fatality Determinations Need Better Controls
                                             1                      Report No. 05-08-002-06-001
                                           U.S. Department of Labor – Office of Inspector General


was clearly contradicted by available evidence. However, we did identify instances of
non-compliance with MSHA policies and control and procedural weaknesses that
increased the risk that such errors could occur. We found that investigators and
decision-makers lacked independence, investigative procedures were inconsistent, and
investigative documentation was sometimes lacking.

Recommendations

The OIG recommends that the Assistant Secretary for MSHA:

   1.   Develop and implement a standard protocol for first responders.

   2.   Develop policies and procedures to require that the initial chargeability
        determination for all reported fatalities be made by an individual outside of the
        district in which the fatality occurred.

   3.   Include a member on the Fatality Review Committee who is not a current or
        former employee of either the Department of Labor or a mine operator.

   4.   Publish summary information on all reported fatalities, both chargeable and
        non-chargeable.

   5.   Establish and require a standard investigative protocol for all reported fatalities.

   6.   Require that a chargeability determination be made only at the conclusion of a
        complete investigation and considering all pertinent and available evidence.

   7.   Establish a system to assure that all facts and information used to reach a
        chargeability decision are supported by documentation.

Agency Response

In response to the draft report, DOL’s Assistant Secretary for Mine Safety and Health
stated that the audit provided valuable context to MSHA’s stakeholders regarding
chargeability decisions made by MSHA officials, as well as actions it can take to further
enhance public confidence in the chargeability determination process. He agreed to
revise MSHA’s Accident/Illness Investigations Procedures Handbook to address several
of our recommendations. He also agreed to make summary information on
non-chargeable fatalities publicly available and to explore the possibility of an outside
party serving on the Fatality Review Committee.

See Appendix D for the agency’s complete response to our draft report.




                                  MSHA's Chargeable Fatality Determinations Need Better Controls
                                            2                      Report No. 05-08-002-06-001
                                          U.S. Department of Labor – Office of Inspector General


OIG Conclusion

The Assistant Secretary generally agreed with our recommendations. His response
proposed corrective actions for Recommendations 1, 2, 4, 5, and 6, but provided no
completion milestones. As a result, these recommendations remain unresolved
pending estimated completion dates.

He suggested further discussion with the OIG regarding possible options for including
an outside party on the Fatality Review Committee (Recommendation 3). This
recommendation remains unresolved pending a specific corrective action and an
estimated completion date.

Finally, the response provided insufficient information to determine whether MSHA
would develop a system to assure that facts and information used to reach chargeability
decisions are supported by documentation (Recommendation 7). This recommendation
will remain unresolved pending a specific corrective action and an estimated completion
date.




                                 MSHA's Chargeable Fatality Determinations Need Better Controls
                                           3                      Report No. 05-08-002-06-001
                 U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




        MSHA's Chargeable Fatality Determinations Need Better Controls
                  4                      Report No. 05-08-002-06-001
                                           U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




                        Assistant Inspector General’s Report



Mr. Richard E. Stickler
Assistant Secretary for
 Mine Safety and Health
U.S. Department of Labor
1100 Wilson Boulevard
Arlington, VA 22209-3939


In response to a request from Congressman George Miller, Chairman of the House
Committee on Education and Labor, the Office of Inspector General (OIG) conducted a
performance audit of the Mine Safety and Health Administration’s (MSHA’s) process for
deciding whether reported fatalities were chargeable to the mining industry.
Specifically, we performed work to determine whether MSHA’s process and controls to
ensure that its decisions regarding whether a reported fatality was chargeable to the
mining industry were consistent, supported by appropriate evidence, and in accordance
with Federal regulations and MSHA policies. The audit included decisions made by
both the Office of Coal Mine Safety and Health (CMS&H) and the Office of
Metal/Nonmetal Safety and Health (MNM).

We reviewed a sample of 152 fatality decisions, both chargeable and non-chargeable,
made between January 1, 2004 and December 31, 2006. We also reviewed 24 fatality
decisions finalized between February 9, 2007 and June 30, 2007 during which MSHA’s
revised policy was in place. We did not identify instances in which similar
circumstances produced different decisions or instances in which a chargeability
decision was clearly contradicted by available evidence. However, we did identify
instances of non-compliance with MSHA policies and control and procedural
weaknesses that increased the risk that such errors could occur. We found that
investigators and decision-makers lacked independence, investigative procedures were
inconsistent, and investigative documentation was sometimes lacking. Reliable and
well documented chargeability decisions improve miner safety and health by increasing
MSHA’s ability to identify work-related mine fatalities and utilize causal information to
prevent similar occurrences.

Mine operators are required by law to report to MSHA any fatality that occurs on their
property. MSHA investigates these instances to determine whether the death should be
chargeable to the mine industry and included in MSHA’s annual statistics regarding
fatality rates at mines.

                                 MSHA's Chargeable Fatality Determinations Need Better Controls
                                           5                      Report No. 05-08-002-06-001
                                           U.S. Department of Labor – Office of Inspector General




Investigations of reported fatalities are conducted by MSHA personnel in the local
district office. Based on this investigation, an MSHA District Manager makes the initial
chargeability determination and reports that decision to MSHA Headquarters in a written
memorandum. Prior to February 9, 2007, all non-chargeable decisions were reviewed
by the appropriate MSHA Administrator (CMS&H or MNM) who issued the final
determination. As of February 9, 2007, a revised policy required all non-chargeable
decisions to be reviewed by a Fatality Review Committee composed of three senior
level MSHA officials having no direct enforcement responsibilities and a representative
from the Department of Labor’s (DOL’s) Office of the Solicitor. Additional background
information is contained in Appendix A.

We conducted this performance audit in accordance with generally accepted
government auditing standards for performance audits. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a sufficient basis for our findings and
conclusions based on our audit objectives. Our audit scope, methodology and criteria
are detailed in Appendix B.

Objective - Did MSHA’s process and controls ensure that its decisions regarding
            whether a reported fatality was chargeable to the mining industry
            were consistent, supported by appropriate evidence, and in
            accordance with Federal regulations and MSHA policies?

No. While our review did not identify chargeability decisions that were inconsistent,
clearly contradicted by available evidence, or not in compliance with Federal
regulations, procedural and control weaknesses created a risk that these conditions
could occur. This was because (1) investigators and decision-makers lacked
independence, (2) the investigative procedures were inconsistent, and (3) investigative
documentation was sometimes lacking. In addition, under MSHA’s former policy,
(4) not all second-level reviews were completed. Reliable chargeability decisions
improve miner safety and health by increasing MSHA’s ability to identify work-related
mine fatalities and utilize causal information to prevent similar occurrences.

Results and Findings

  Finding 1 - Investigators and Decision-makers Lacked Independence
              without Effective Compensating Controls

MSHA investigators involved in conducting fatality investigations and MSHA
management personnel responsible for making and reviewing chargeability
determinations lacked independence. Independence refers to an individual’s freedom
from external control or influence that could impair the ability to act impartially.
Independence is impaired when a person has a personal interest sufficient to influence
or appear to influence the objective exercise of his or her official duties. Impairments to


                                  MSHA's Chargeable Fatality Determinations Need Better Controls
                                            6                      Report No. 05-08-002-06-001
                                                    U.S. Department of Labor – Office of Inspector General


independence presented an increased risk that an investigator or manager could
influence a fatality investigation or chargeability decision to affect a favorable outcome.
This could reduce the reliability of the investigative process and decisions.

The personal performance appraisals for MSHA inspectors and District Managers were
tied to MSHA performance outcomes related to reducing chargeable fatalities. This
could influence the actions of these individuals to minimize chargeable fatalities. Fewer
chargeable fatalities would produce a lower mining fatality rate. In turn, a lower mining
fatality rate could create a better performance rating. In addition, the public’s perception
of MSHA’s overall organizational performance may have been linked, in part, to
increases or decreases in the mining fatality rate. As a result, the perceived
independence of all MSHA personnel would be impaired to varying degrees.

When circumstances or realistic limitations make complete independence impractical,
compensating controls 1 can reduce the associated risk by increasing the likelihood that
incorrect or improper actions are identified. Controls aimed at increasing independence
throughout the investigative and decision-making process or controls aimed at
increasing the likelihood that incorrect decisions will be detected are critical to the
impartial determination of chargeable fatalities.

Independence of Investigators

MSHA’s response to a reported fatality could include a “first responder” and an accident
investigation team. The first responder was responsible for securing the scene and
issuing any appropriate enforcement orders. The accident investigation team was
responsible for conducting a physical examination of the accident scene, interviewing
witnesses, and analyzing and testing of equipment or material which may have been
involved in the accident. Maximizing the independence of these individuals was critical
to the actual and perceived reliability of the information collected. MSHA’s policy on the
level of independence required for personnel involved in the investigation of fatalities
was incomplete, contained inappropriate exceptions, and was often not followed. This
increased the risk that chargeability decisions would not be impartial.

The MSHA’s Accident/Illness Investigations Procedures Handbook (Handbook) did not
address the independence of first responders. To secure the quickest possible
response, MSHA officials stated that the first responder was frequently the MSHA
inspector assigned enforcement responsibility for the reporting mine. Both CMS&H and
MNM management stated that if the first responder made an initial decision that the
fatality was likely to be non-chargeable, that individual was often the only MSHA
investigator assigned to the accident scene. As a result, an individual who did not meet
MSHA’s independence standard often influenced the scope and manner of the
subsequent investigation by making the initial chargeability decision.


1
 A compensating control limits the severity of a deficiency and prevents it from rising to the level of a
significant deficiency or material weakness. Although compensating controls mitigate the effects of a
deficiency, they do not eliminate the deficiency.

                                         MSHA's Chargeable Fatality Determinations Need Better Controls
                                                   7                      Report No. 05-08-002-06-001
                                            U.S. Department of Labor – Office of Inspector General


Even if the first responder decision that the fatality may be chargeable, the extent of
his/her subsequent duties was unclear. MSHA policy did not limit or define the specific
role and responsibilities of the first responder to a fatality. As a result, those roles and
responsibilities varied among districts. Most districts agreed that the first responder was
responsible for securing the accident scene and issuing any appropriate enforcement
orders. However, the supplemental responsibilities of first responders varied among
districts and could have included taking photographs, taking preliminary witness
statements, working with the coroner, taking measurements, conducting interviews, and
talking to paramedics and local authorities. These activities suggested that first
responders may have participated in investigative activities without the level of
independence prescribed in MSHA’s policy.

The Handbook only addresses the independence of accident investigation teams:

       Neither the team leader nor the team members should have been
       responsible for inspections or plan approvals within the previous 6 months
       at the mine where the fatal accident occurred.

But the Handbook also provided a significant exception to this standard:

       If a District Manager is reasonably certain that a death at a mine is the
       result of natural causes, the investigation to gather information for a
       chargeability determination may be conducted by immediately available
       personnel. In such cases, it will be appropriate to assign the investigation
       to local field personnel who may regularly be involved in inspection
       activities at the mine.

This exception granted significant discretion to the District Managers to make the initial
determination related to the chargeability of a fatality. However, the District Managers’
independence was impaired because their individual performance assessments were
connected to the mining fatality rate in their districts. This created a potential incentive
to determine fatalities were non-chargeable. The Handbook’s exception to the
independence protocol was therefore available for those cases where there was the
greatest risk that fatalities would be misclassified, due to the incentives created by the
District Managers’ individual performance standards to conclude fatalities were
non-chargeable.

We examined a sample of 31 chargeable cases during calendar year (CY) 2004-2006 to
test the independence of accident investigation team leaders and members. In 13
cases (42 percent), the lead investigator, team members, or both, did not meet MSHA’s
independence standard.

Both CMS&H and MNM management stated that the lead investigator should have
always been independent for chargeable fatalities. However, only MNM management
stated that this should also have been the case for other members of the accident
investigation team. CMS&H management indicated that they did not require districts to


                                   MSHA's Chargeable Fatality Determinations Need Better Controls
                                             8                      Report No. 05-08-002-06-001
                                                 U.S. Department of Labor – Office of Inspector General


ensure that other team members were independent. They acknowledged that practical
limitations or certain situations, such as the small size of a district or the need to enlist a
specialist who had worked at the mine where a fatality occurred, sometimes prevented
CMS&H districts from adhering to this MSHA policy.

Independence of Decision Makers

Independence concerns also existed at various points in the decision making process
for chargeable fatalities. While MSHA recently took steps to enhance the independence
of key decision makers, its efforts did not go far enough to alleviate possible perceptions
that its chargeability determinations could be susceptible to improper influence.

Based on the results of accident investigations, District Managers provided MSHA
Headquarters with memoranda documenting their chargeability decisions. These
decisions could have been influenced by a desire to produce a lower mining fatality rate.
Since this rate was a factor in each District Manager’s personal performance
assessment, a lower rate could have resulted in a better performance appraisal.

All non-chargeable fatality decisions were reviewed at MSHA Headquarters. This
secondary review provided some compensating control over weaknesses in the District
Managers’ independence. However, the reviewers themselves were not free of
independence impairments.

Prior to February 9, 2007, the secondary review was conducted by the appropriate
Administrator (CMS&H or MNM) with input from designated senior staff 2 . At the
Administrator’s discretion, a Fatality Review Committee composed of four MSHA
enforcement officials 3 could also review the case and provide input to the Administrator.
The Administrator’s decision was final. However, since the performance of the
Administrators’ offices were measured in part by the mining fatality rate, they and other
MSHA employees directly involved in its enforcement activities lacked the
independence to review chargeability decisions.

On February 9, 2007, MSHA’s Assistant Secretary modified the review protocol by
removing the Administrators from the process and changing the membership of the
Fatality Review Committee. The revised policy required that all non-chargeable
decisions be reviewed by a Fatality Review Committee composed of three MSHA
officials from non-enforcement offices 4 and a representative from DOL’s Office of the
Solicitor. The Fatality Review Committee’s determination is final. Since the current
members of the Fatality Review Committee had no direct enforcement responsibility,

2
  The designated senior staff included the Accident Investigation Program Manager, the Chief of Health,
the Chief of Safety, the Administrator’s Special Assistant, and the Deputy Administrator.
3
  Prior to February 9, 2007, the Fatality Review Committee was composed of the Chief of the Division of
Mining Information Systems, the Chiefs of Safety for both CMS&H and MNM, and a District Manager from
a district other than the one where the fatality occurred.
4
  As of February 9, 2007, the MSHA officials on the Fatality Review Committee were from the following
offices: Program Evaluation and Information Resources, Technical Support, and Educational Policy and
Development.

                                      MSHA's Chargeable Fatality Determinations Need Better Controls
                                                9                      Report No. 05-08-002-06-001
                                            U.S. Department of Labor – Office of Inspector General


they possessed greater independence than under the old policy. However, they are still
DOL employees. As a result, there remained at least a perception that they lacked the
independence needed to make unbiased decisions regarding the chargeability of
fatalities.

Effectiveness of Compensating Controls

MSHA had implemented few controls to minimize the risk associated with independence
impairments. Supervisory oversight and secondary review are potential compensating
controls. But in this case, those functions were performed by individuals who
themselves have some level of independence impairment. Risks related to an actual or
perceived lack of independence could be reduced by involving one or more non-MSHA
employees in the investigative or decision making processes.

Providing the ability for independent parties to review the results of the process could
also minimize the perception that the process was improperly influenced. Currently,
MSHA provides public information related only to chargeable fatality decisions. No
information is voluntarily provided about non-chargeable decisions. Increasing the
transparency of the process and its result would increase the probability that errors,
whether intentional or unintentional, would be detected. This would, in turn, increase
confidence in the validity of the process.

Recommendations

The OIG recommends that the Assistant Secretary for MSHA establish the following
compensating controls to lessen the potential risk from independence impairments:

   1.   Develop and implement a standard protocol for first responders.

   2.   Require that the initial chargeability determination for all reported fatalities be
        made by an individual outside of the district in which the fatality occurred.

   3.   Include a member on the Fatality Review Committee who is not a current or
        former employee of either DOL or a mine operator.

   4.   Publish summary information on all reported fatalities, both chargeable and
        non-chargeable.

Agency Response

For recommendation 1, MSHA stated it will amend its Accident/Illness Investigations
Procedures Handbook and issue related policy guidance to more clearly define the roles
and responsibilities of first responders. This will include prohibiting first responders from
making initial chargeability determinations, as well as appropriate evidentiary and
documentation requirements.



                                   MSHA's Chargeable Fatality Determinations Need Better Controls
                                            10                      Report No. 05-08-002-06-001
                                           U.S. Department of Labor – Office of Inspector General


For recommendation 2, MSHA stated it will instruct District management to transmit all
available factual information and evidence to MSHA Headquarters without making an
initial chargeability determination or recommendation. This instruction will also be
included in its revised Accident/Illness Investigations Procedures Handbook.

For recommendation 3, MSHA stated there is merit in having an outside party serve on
the Fatality Review Committee, and that a member from outside of DOL with scientific
and/or medical expertise could further improve the chargeability review process in those
cases where the cause of death is particularly complex. MSHA will explore inviting a
party outside of DOL to participate on the Fatality Review Committee.

For recommendation 4, MSHA stated that it will include summary information on non-
chargeable fatalities on its web page. Additional options will also be considered.

OIG Conclusion

We consider the proposed corrective actions for Recommendations 1, 2, and 4 to be
sufficient. However, these recommendations will remain unresolved pending
completion milestones. The recommendations will be closed when MSHA provides
documentation to show that appropriate revisions have been made to the
Accident/Illness Investigations Procedures Handbook and that non-chargeable fatality
information has been posted on its web site.

Recommendation 3 is unresolved pending receipt of a specific proposal and milestone
date to include a member on the Fatality Review Committee who is not a current or
former employee of either DOL or a mine operator.


  Finding 2 - Scope and Method of Accident Investigations Were Inconsistent

MSHA’s scope and method of investigating fatalities were inconsistent. The type,
amount, and detail of the information available to determine a fatality’s chargeability
varied. This occurred because MSHA did not require that the same procedures be
performed or the same information be gathered for all reported fatalities. Instead, the
investigative scope and method was defined by a preliminary judgment about the “likely”
final determination. The lack of a standard protocol to investigate all reported fatalities
presented an increased risk that chargeability decisions were based on incorrect or
incomplete information. As a result, MSHA lacked adequate assurance that
non-chargeable fatality determinations were correct, consistent, and in compliance with
Federal regulations and MSHA policy.

The Handbook stated that the primary purpose of an accident investigation was to
identify the root cause of the accident so that recommendations could be made to
prevent similar occurrences in the future. Determining the chargeability of related
fatalities was a secondary result of the investigation. MSHA had standard procedures
for conducting accident investigations.


                                  MSHA's Chargeable Fatality Determinations Need Better Controls
                                           11                      Report No. 05-08-002-06-001
                                           U.S. Department of Labor – Office of Inspector General




The procedures stated, in part:

   ▪   As the investigation progresses the investigators will inevitably form conceptions
       about the causes of the accident. However, a complete and thorough accident
       investigation must always be structured to properly identify, explore, and develop
       these root causes in the interest of accident reduction or elimination. Rather than
       acknowledging or accepting them on their own merit, the investigator must give
       full consideration to related or underlying conditions, practices, or circumstances.

   ▪   Any information relevant to the accident, whether it be in the form of physical
       evidence such as methane detectors, documentary evidence such as records
       and plans, or testimony taken at the investigation, shall be collected and
       preserved in a systematic manner and stored at a central location designated by
       the investigation team leader.

However, MSHA did not apply these procedures consistently for all fatality
investigations. MSHA’s investigation efforts were based on a preliminary chargeability
determination made at the district level. If the District Manager initially judged that a
reported fatality was likely to be chargeable, a complete accident investigation was
conducted. However, if the District Manager’s initial judgment was that the fatality was
likely to be non-chargeable, a more limited, less detailed investigation was often
conducted. As previously discussed (see p. 8), this initial judgment by the District
Manager may have also affected the independence level of the investigator(s) assigned.

Defining the investigative scope and methods based on an assumed outcome increased
the risk that relevant investigative information would not be collected. The District
Manager’s initial judgments were based on limited and potentially unverified information.
If that judgment was later shown to be incorrect, it may have been difficult or impossible
to expand the scope of the original investigation. For example, both CMS&H and MNM
district management stated that they routinely assessed “contributory work-related
factors” such as overexertion, electrocution, or environmental factors (e.g., extreme
temperatures, noxious gases, etc.) in determining the root cause of chargeable
fatalities. But since defining a root cause was not required for non-chargeable fatality
cases, the requirement to evaluate these areas would not apply to these cases.
However, if information gathered during the latter investigation cast doubt on the initial
determination of “non-chargeable,” it may not have been possible to complete the
required assessment of environmental factors (e.g., taking air temperatures or testing
for gases) because of the passage of time. As a result, the final chargeability
determination may have been based on less than complete information.

The scope and method of a fatality investigation should not be based on a
pre-determination of the outcome. The scope and methodology for all fatality
investigations should be consistent. Conducting a thorough, standardized investigation
would allow subsequent conclusions, whether about the cause of an accident or the
chargeability of a fatality, to be based on the most complete and accurate information.


                                  MSHA's Chargeable Fatality Determinations Need Better Controls
                                           12                      Report No. 05-08-002-06-001
                                            U.S. Department of Labor – Office of Inspector General




Recommendations

The OIG recommends that the Assistant Secretary for MSHA:

   5.   Establish and require a standard investigative protocol for all reported fatalities.

   6.   Require that a chargeability determination be made only at the conclusion of a
        complete investigation and considering all pertinent and available evidence.

Agency Response

For recommendation 5, MSHA stated it will amend the Accident/Illness Investigations
Procedures Handbook to more clearly define a standard investigative protocol for all
fatality investigations in a manner which addresses the findings. However, MSHA
stated the level of detail and complexity of a fatality investigation, whether chargeable or
non-chargeable, may vary based on the nature of the fatality and the cooperation of
outside parties over which MSHA does not have absolute control (e.g., family members,
coroners offices, etc.).

MSHA stated its proposed corrective actions pursuant to recommendations 2 and 5 will
also address recommendation 6.

OIG Conclusion

We consider the proposed corrective actions for Recommendations 5 and 6 to be
sufficient. However, the recommendations will remain unresolved pending completion
milestones. The recommendations will be closed when MSHA provides documentation
to show that appropriate revisions have been made to the Accident/Illness
Investigations Procedures Handbook.


  Finding 3 - Relevant Investigative Tasks and Findings Were Not Always
              Documented

For non-chargeable fatalities, information presented in MSHA’s chargeability
memoranda was not always supported in the Accident Investigation Administrative File.
Documentation deficiencies related to (a) investigative tasks stated to have been
performed and (b) investigative results presented in support of the final decision. While
the facts presented in the memoranda supported the decision reached, the validity of
some or all of those facts could not be confirmed based on documentation in the file.
Inadequate documentation of investigative scope or results created the possibility that
decisions were based on incorrect or incomplete information. It also reduced the ability
of a supervisory or third-party review to confirm the decision. As a result, MSHA had
less assurance that non-chargeable fatality decisions were correct, consistent, and in
compliance with Federal regulations and MSHA policy.


                                  MSHA's Chargeable Fatality Determinations Need Better Controls
                                           13                      Report No. 05-08-002-06-001
                                            U.S. Department of Labor – Office of Inspector General




The Handbook required:

   ▪   All actions relevant to the accident must be documented so that a chronology of
       the events which occurred before, during and, where appropriate, after the
       accident, can be developed.

   ▪   Detailed records shall be maintained of all observations and information obtained
       to document the investigation.

   ▪   Copies of witness statements shall be included in the official accident
       investigation file and shall be made available to the public at the close of the
       investigation, unless a witness has requested confidentially.

   ▪   Investigators must obtain a copy of the report of autopsy, if one was performed,
       and a copy of the death certificate. These documents should be reviewed before
       the formal report is finalized in order to ensure that the findings and conclusions
       of the accident investigators are consistent with the official cause of death.

   ▪   Where the cause of death noted in the autopsy report and/or death certificate is
       inconsistent with the findings of the accident investigators, the inconsistencies
       must be reconciled or explained in the report of accident investigation.

Our review of a sample of 79 out of 185 non-chargeable fatality cases during CY 2004-
2006 identified examples in which MSHA personnel did not adequately document all
stated investigative activities. Six decision memoranda stated that contributory factors
(e.g., physical exertion, road grades and conditions, equipment malfunctions or failures,
etc.) had been evaluated. However, none of these Accident Investigation Administrative
Files contained documentation to support the nature or results of these evaluations.
The absence of this documentation prevents a secondary or independent reviewer from
confirming the extent and appropriateness of the investigative activities or the validity of
information based on these activities.

Our review of the same sample of cases showed that Accident Investigation
Administrative Files did not consistently contain investigator notes, witness interviews or
statements, medical evidence, or other documentation to support facts described in the
related chargeability memoranda. Of the 79 cases reviewed, 17 (22 percent)
memoranda contained information considered in non-chargeable decision that was not
supported by documentation in the file as summarized in Table 1 below:




                                  MSHA's Chargeable Fatality Determinations Need Better Controls
                                           14                      Report No. 05-08-002-06-001
                                                U.S. Department of Labor – Office of Inspector General


                                  Table 1
                      Non-chargeable Fatality Decisions
                 Lacking Documentation of Investigative Facts
                                      CMS&H             MNM            Total
        Cases Reviewed                  36               43             79
        Exceptions Noted                 11               6             17
        Exception Rate                  31%             14%            22%
        Source: OIG analysis of chargeability documentation provided by MSHA

For example:

   ▪    A chargeability memorandum concluded that a miner’s death was the result of
        heart attack and was therefore non-chargeable. In support of this conclusion, the
        memorandum stated that the victim had complained of chest and stomach pains
        prior to collapsing. However, the Accident Investigation Administrative File did
        not contain witness interviews or statements to support such complaints from the
        victim.

   ▪    A chargeability memorandum concluded that a miner’s death was the result of a
        heart attack and was therefore non-chargeable. In support of this conclusion, the
        memorandum stated that the victim had stated that he was not feeling well prior
        to collapsing. However, the Accident Investigation Administrative File contained
        only interviews with the mine operator and an equipment operator, neither of
        whom was present at the time of the incident.

Without adequate documentation of facts used to support chargeability determinations,
those determinations are subject to challenge.

Recommendation

The OIG recommends that the Assistant Secretary for MSHA:

   7.    Establish a system to assure that all facts and information used to reach a
         chargeability decision are supported by documentation.

Agency Response

For Recommendation 7, MSHA stated that documentation requirements will be
addressed in the corrective actions pursuant to Recommendations 5 and 6.

OIG Conclusion

It is not clear that the corrective actions proposed for Recommendations 5 and 6 are
sufficient to assure that the facts and information used to make chargeability decisions
will be supported by documentation. We maintain that MSHA should establish a quality

                                      MSHA's Chargeable Fatality Determinations Need Better Controls
                                               15                      Report No. 05-08-002-06-001
                                           U.S. Department of Labor – Office of Inspector General


control system to ensure all facts and information used to reach a chargeability decision
are supported by documentation. This recommendation remains unresolved pending
more specific corrective action and a completion milestone.


  Finding 4 - Under MSHA’s Former Policy, Second-Level Reviews Were Not
              Always Performed

MSHA Headquarters officials did not consistently perform an evaluation of
non-chargeable fatality decisions as required by MSHA’s policy prior to February 2007.
MSHA’s revised policy corrected this previous deficiency. Secondary review could have
mitigated concerns about the independence of the initial decision-maker, identified
potential errors, and assured consistency. Omission of these secondary reviews voided
those benefits.

Under the MSHA policy in place prior to February 2007, all non-chargeable fatality
determinations by District Managers had to be reviewed and concurred in by the
appropriate Administrator. Prior to the Administrator’s review, the policy stated that five
senior staff would review the case and provide their input. Those officials included the
Accident Investigation (AI) Program Manager, the Chief of Health, the Chief of Safety,
the Administrator’s Special Assistant, and the Deputy Administrator.

Only 1 of 79 cases (1 percent) in our sample had been reviewed by all of the designated
officials. In fact, most (23 of 36; 64 percent) of the CMS&H cases in our sample had
been reviewed by only one or two of the officials; 2 of 36 cases (6 percent) had not
been reviewed by any senior staff. Most (25 of 43; 58 percent) of the MNM cases in our
sample had been reviewed by four of the designated officials and all cases had been
reviewed by at least two officials.

Both CMS&H and MNM officials stated that they had informally modified the policy to
reduce the number of reviewers. CMS&H management stated that only the AI Program
Manager, Special Assistant, and Deputy Administrator performed these reviews. MNM
management stated that reviews were not consistently performed by the Chief of Health
because that position was vacant during portions of our audit period.

An analysis of the audit sample generally confirmed these assertions as summarized in
Table 2 below:




                                  MSHA's Chargeable Fatality Determinations Need Better Controls
                                           16                      Report No. 05-08-002-06-001
                                                          U.S. Department of Labor – Office of Inspector General



                                       Table 2
                        Summary of Missing Senior Staff Reviews

                100%
                80%
   Percentage




                60%                                                                   CMS&H
                40%                                                                   MNM
                20%
                 0%
                       Chief of   Chief of   AI Program    Special      Deputy
                       Health     Safety      Manager     Assistant   Administrator

                                       Reviewing Official

Source: OIG analysis of chargeability documentation provided by MSHA

As senior officials, these designated reviewers each provided a level of expertise and
experience to the review of non-chargeable fatality decisions. Omitting one or more of
these officials from the review process weakened the assurance provided by this
oversight process.

This deficiency has been addressed by the February 2007 changes to MSHA’s
chargeability process. Under the new policy all non-chargeable decisions from District
Managers are automatically reviewed by a Fatality Review Committee composed of
three MSHA officials from non-enforcement offices and a representative from DOL’s
Office of the Solicitor. A review of the 12 non-chargeable fatality cases completed
between February 9, 2007 and June 30, 2007, showed that all members of the Fatality
Review Committee completed their required reviews on these cases.




Elliot P. Lewis
November 1, 2007




                                              MSHA's Chargeable Fatality Determinations Need Better Controls
                                                       17                      Report No. 05-08-002-06-001
                 U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




        MSHA's Chargeable Fatality Determinations Need Better Controls
                 18                      Report No. 05-08-002-06-001
                      U.S. Department of Labor – Office of Inspector General




Appendices




             MSHA's Chargeable Fatality Determinations Need Better Controls
                      19                      Report No. 05-08-002-06-001
                 U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




        MSHA's Chargeable Fatality Determinations Need Better Controls
                 20                      Report No. 05-08-002-06-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix A
Background

U.S. Mining Industry

Mining is an inherently dangerous industry with historically high risks of injury and
fatality. In CY 2006 there were over 11,000 injuries and 72 mining related deaths.
Mining is also critical to the Nation and its economy. Coal produces more than 51
percent of the electricity generated in the United States and is also used for residential
and commercial heating, the production of coke for the steel industry, and as a raw
material in the chemical industry. Metal and nonmetal products (metal, stone, sand,
and gravel) contribute substantially to the construction industry and support the building
and maintenance of the Nation’s physical infrastructure.

There are approximately 2,100 coal mines located in 27 states that employ 123,000
people. There are approximately 12,450 metal and nonmetal operations located across
all 50 states that employ over 225,000 people and produce about 80 minerals and
commodities.

During CY 2006, there were 145 reported fatalities at U.S. mining operations. Of these,
72 were determined to be “mining related.”

MSHA

MSHA was established in 1978 by the Federal Mine Safety and Health Act of 1977
(Mine Act). The Mine Act transferred the Federal enforcement program from the
Department of the Interior to the Department of Labor (DOL) and placed coal mines and
metal/nonmetal mines under a single law.

As a result of the increase in coal mine fatalities in early CY 2006, the Mine
Improvement and New Emergency Response (MINER) Act amended the Mine Act on
June 15, 2006. The MINER Act includes provisions for updated emergency response
plans, increased training and availability of rescue teams, improved communication
technology, and training programs for miners and mine inspectors.

MSHA is responsible for administering the provisions of both the Mine Act and the
MINER Act. MSHA’s primary goals are (1) enforcing compliance with mandatory safety
and health standards to eliminate fatal accidents; (2) reducing the frequency and
severity of nonfatal accidents; (3) minimizing health hazards; and (4) promoting
improved safety and health conditions in the nation's mines. MSHA’s budgeted
operating costs totaled $278 million for Fiscal Year (FY) 2007 and $278 million for
FY 2006.

The Offices of Coal Mine Safety and Health (CMS&H) and Metal/Nonmetal Safety and
Health (MNM) are responsible for enforcing mining laws and regulations at all mines.
This includes developing safety and health standards; reviewing mine operators’ mining


                                  MSHA's Chargeable Fatality Determinations Need Better Controls
                                           21                      Report No. 05-08-002-06-001
                                                   U.S. Department of Labor – Office of Inspector General


plans and training programs; conducting inspections; investigating fatal and serious
nonfatal accidents; investigating complaints of hazardous conditions reported by miners;
issuing citations and orders for observed violations; and conducting safety and health
conferences with mine operators. CMS&H administers 11 districts and 44 associated
field offices with staff totaling approximately 1,175. Its budgeted operating costs totaled
$120 million for FY 2007and $117 million for FY 2006. MNM administers 6 districts and
47 associated field offices with staff totaling approximately 540. It’s annual budgeted
operating costs totaled approximately $70 million for FY 2007 and $68 million for
FY 2006.

MSHA’s Process for Determining Chargeable Deaths

The Federal regulations under 30 CFR Parts 45 and 50 require mine contractors and
operators to report all fatalities to MSHA. However, the regulations do not specify how
MSHA is to determine whether a fatality should be chargeable to the mine industry and
included in MSHA’s reported statistics.

The criteria for determining the chargeability of fatalities was established in MSHA
guidelines 5 developed for internal use. The guidelines stated that a fatality was
chargeable if the incident resulted in a death on mine property and from mine related
work or the death was caused by mining activities. Fatalities on mine property resulting
from (a) natural causes (e.g., heart attack); (b) personal impairment not complicated by
or resulting from their work activity; (c) trespass; (d) homicide; or (e) suicide were not
chargeable.

In January 2007, MSHA initiated and completed an in-house review of how it
determined which deaths were counted in its yearly total of mining fatalities. As a result,
on February 9, 2007, MSHA’s Assistant Secretary revised the procedure for making
chargeability decisions.

MSHA’s Decision Making Process – Prior to February 9, 2007

When a mine operator reported a fatality, MSHA conducted an investigation and
provided the results to the District Manager. If the District Manager determined that a
fatality should not be charged to the mining industry, a memorandum report 6 requesting
a chargeability occurrence determination was submitted to the respective MSHA
Administrator (CMS&H or MNM). The Deputy Administrator, Special Assistant to the
Administrator, AI Program Manager, Chief of the Safety Division, and Chief of the
Health Division were to review the investigative findings and provide input prior to the
Administrator’s chargeability decision.

5
 MSHA’s Accident/Illness Investigation Procedures Handbook, Release 2 (February 2004).
6
 The memorandum report must describe in detail the activities of the person prior to the time of death
and any related information which addresses chargeability. For deaths involving natural causes,
supporting documents must include a copy of the death certificate and, if possible, the autopsy report, the
coroner's report, or the statement of an attending physician. In addition, any information that clarifies
physical stress, prior medical history, or medication should be included in the report.

                                        MSHA's Chargeable Fatality Determinations Need Better Controls
                                                 22                      Report No. 05-08-002-06-001
                                          U.S. Department of Labor – Office of Inspector General


If the decision was not clear, the Administrator could request that MSHA’s Fatality
Review Committee provide an opinion on whether the death was chargeable. The
Fatality Review Committee was composed of (1) the Chief, Office of Program Policy
Evaluation within the Directorate of Program Evaluation and Information Resources
(PEIR); (2 & 3) the Chief of Safety from both CMS&H and MNM; and (4) a District
Manager from a district other than the one where the fatality occurred. The opinion of
the Committee was provided to the respective MSHA Administrator for review and final
decision. If still uncertain, the Administrator could elevate a decision to MSHA’s
Assistant Secretary for review.

There was no process to appeal a chargeability decision.

MSHA’s Decision Making Process – As of February 9, 2007

The changes made to the process for determining the chargeability of fatalities by
MSHA’s Assistant Secretary (1) removed the responsibility for making final non-
chargeable determinations from the Administrators, (2) mandated that all
non-chargeable determinations be reviewed and finally decided by the Fatality Review
Committee, and (3) revised the membership of the Fatality Review Committee to
include three MSHA officials from non-enforcement offices (Program Evaluation and
Information Resources, Technical Support, and Educational Policy and Development)
and a representative from DOL’s Office of the Solicitor. Per the revised policy, “the
decision made by MSHA’s Fatality Review Committee should be unanimous and will be
final.”




                                 MSHA's Chargeable Fatality Determinations Need Better Controls
                                          23                      Report No. 05-08-002-06-001
                 U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




        MSHA's Chargeable Fatality Determinations Need Better Controls
                 24                      Report No. 05-08-002-06-001
                                                 U.S. Department of Labor – Office of Inspector General


                                                                                         Appendix B
Objective, Scope, Methodology, and Criteria

Objective

We performed audit work to address the following question:

    ▪   Did MSHA’s process and controls ensure that its decisions regarding whether a
        reported fatality was chargeable to the mining industry were consistent,
        supported by appropriate evidence, and in accordance with Federal regulations
        and MSHA policies?

Scope and Methodology

To accomplish our audit objective, we obtained an understanding of MSHA’s process
and policies and procedures for determining whether reported fatalities were chargeable
to the mining industry and of applicable Federal regulations and MSHA policies. We
interviewed officials, management, and personnel at CMS&H and MNM headquarters
and two district offices and United Mine Workers of America and United Steel Workers
representatives. We also sent a standard questionnaire and conducted follow-up
telephone interviews with 16 of 17 MSHA district offices 7 .

In addition, we used statistical sampling (95 percent confidence level, 15 percent error
rate) to test chargeable and non-chargeable fatality determinations from CY 2004-2006
for consistency, appropriate supporting evidence, and compliance with Federal
regulations and MSHA policy. We also tested 100 percent of final chargeable and
non-chargeable fatality determinations from February 9, 2007 (the date MSHA revised
its Chargeability Guidelines) through June 30, 2007 for consistency, appropriate
supporting evidence, and compliance with Federal regulations and MSHA policy. We
tested a judgmental selection of chargeable fatality determinations from CY 2004-2006
to determine whether the accident investigation team leaders and members were
independent in accordance with MSHA policy.

We tested the controls associated with MSHA’s process for determining the
chargeability of fatalities. We conducted this performance audit in accordance with
generally accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provided a reasonable basis for our findings and
conclusions related to our audit objective.




7
  MNM South Central District office was not asked to complete a questionnaire because sufficient
information was obtained during the site visit.

                                       MSHA's Chargeable Fatality Determinations Need Better Controls
                                                25                      Report No. 05-08-002-06-001
                                                  U.S. Department of Labor – Office of Inspector General


Site Visits

We made site visits to CMS&H and MNM Headquarters in Arlington, Virginia; CMS&H
District 4 in Mount Hope, West Virginia; and MNM South Central District Office in
Dallas, Texas. We judgmentally selected these locations from among 11 CSM&H and 6
MNM districts based on several factors that included the volume of fatalities that
occurred within each district during CY 2004-2006. The sites we selected are shown in
Table 1 below:

                                                Table 1
                                               Site Visits

Description                       Location               Basis for Selection
CMS&H District 4                  Mt. Hope, WV            ▪   Highest number of overall and
(August 20-21, 2007)                                          statistically selected non-chargeable
                                                              coal mine fatalities for CY 2004-2006.
MNM South Central District        Dallas, TX              ▪   High number of overall and statistically
(August 16-17, 2007)                                          selected non-chargeable metal and
                                                              nonmetal mine fatalities for CY 2004-
                                                              2006.
Source: OIG analysis of fatality determinations and mining data (i.e., production, number of miners)
provided by MSHA.

At each district, we reviewed a statistical sample of fatality files and interviewed key
personnel using a standard set of questions related to our audit objective. We
conducted site visits from April 2007 through August 2007.

Questionnaire

In addition to our site visits, we sent a standard questionnaire to management in 16 of
17 MSHA districts to obtain their perspective and feedback on the chargeability
determination process in their respective district and in Headquarters. We used
questions similar to our onsite interviews to obtain comparable information. We did not
administer a questionnaire to South Central district and instead placed reliance on
information collected during our onsite interviews with district management and staff.
We conducted telephone interviews and email follow-up with each district 8 .

Evaluation of Fatality Determinations

In addition to the interviews, questionnaire, and site visits discussed above, to
determine whether chargeable fatality decisions were consistent, supported by
appropriate evidence, and in accordance with Federal regulations and MSHA policies,
we obtained a walkthrough of the process for making chargeable fatality decisions,
8
 We did not conduct a follow-up telephone interview with District 9 per MSHA management’s request.
Multi-fatality accidents at the Crandall Canyon mine in Utah during August 2007 heavily impacted this
District’s resource availability and its ability to respond to audits.

                                        MSHA's Chargeable Fatality Determinations Need Better Controls
                                                 26                      Report No. 05-08-002-06-001
                                           U.S. Department of Labor – Office of Inspector General


analyzed the process, identified control points and deficiencies, and reviewed internal
reports for any related issues.

We also selected a statistical sample of chargeable and non-chargeable fatality
determinations from CY 2004-2006 to test for consistency, appropriate supporting
evidence, and compliance with Federal regulations and MSHA policies:

                         Chargeable                    Non-Chargeable
                  Population  Sample Tested       Population Sample Tested
CMS&H                 97            38                70          36
MNM                  87             35               115          43
Totals               184            73               185          79
Source: OIG sample plan

We tested 100 percent of final chargeable and non-chargeable fatality determinations
from February 9, 2007 through June 30, 2007 for consistency, appropriate supporting
evidence, and compliance with Federal regulations and MSHA policies:

                    Chargeable   Non-Chargeable
CMS&H                      6            1
MNM                        7           10
Totals                    13           11
Source: OIG sample plan

We judgmentally selected 31 of our statistical sample of 73 chargeable fatality
determinations from CY 2004-2006 to determine whether the accident investigation
team leaders and members were independent in accordance with MSHA policies.

Criteria

We used the following criteria to perform this audit:

   ▪   Federal Mine Safety and Health Act of 1977 (Section 103)
   ▪   Mine Improvement and New Emergency Response Act of 2006 (MINER ACT)
   ▪   MSHA Title 30, Code of Federal Regulations, Part 50
   ▪   MSHA Accident/Illness Investigations Procedures Handbook, 2004
   ▪   GAO's Standards for Internal Control in the Federal Government, 1999




                                  MSHA's Chargeable Fatality Determinations Need Better Controls
                                           27                      Report No. 05-08-002-06-001
                 U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




        MSHA's Chargeable Fatality Determinations Need Better Controls
                 28                      Report No. 05-08-002-06-001
                                       U.S. Department of Labor – Office of Inspector General


                                                                              Appendix C
Acronyms and Abbreviations

AI              Accident Investigations

CMS&H           Coal Mine Safety and Health

CY              Calendar Year

DOL             Department of Labor

FY              Fiscal Year

Handbook        MSHA Accident/Illness Investigations Procedures

MNM             Metal/Nonmetal Safety and Health

MSHA            Mine Safety and Health Administration

OIG             Office of Inspector General




                              MSHA's Chargeable Fatality Determinations Need Better Controls
                                       29                      Report No. 05-08-002-06-001
                 U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




        MSHA's Chargeable Fatality Determinations Need Better Controls
                 30                      Report No. 05-08-002-06-001
                           U.S. Department of Labor – Office of Inspector General


                                                                  Appendix D
Agency Response




                  MSHA's Chargeable Fatality Determinations Need Better Controls
                           31                      Report No. 05-08-002-06-001
         U.S. Department of Labor – Office of Inspector General




MSHA's Chargeable Fatality Determinations Need Better Controls
         32                      Report No. 05-08-002-06-001
         U.S. Department of Labor – Office of Inspector General




MSHA's Chargeable Fatality Determinations Need Better Controls
         33                      Report No. 05-08-002-06-001
                                   U.S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210




                          MSHA's Chargeable Fatality Determinations Need Better Controls
                                   34                      Report No. 05-08-002-06-001
